                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

 Case Number: 112080060                                                                     Page 1 of 1




                 We received a complaint from an NSF employee 1 regarding mis-use 2 ofNSF property. 3
          The complaint was investigated,4 property authorities were notified 5 and recommendations 6 were
          made to NSF ensuring no future issues. 7

          This investigative case is closed with no further action taken.




NSF OJG Form 2 (11 /02)
